Supreme Court, U.S.
FILED

WAIVER

NOV 0 4 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No

19-459

Texas Brine Company, LLC

v.

Florida Gas Transmission Company, LLC, et al

(Respondent)

(Petitioner)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

National Surety Company

0 I am a member of the Bar of the Supreme Court of the United States.
10 I am not presently a me er f the B
ember
will be filed by a B.

Court. Should a response be requested, the response

Signature
Date. (1/
(Type or print) Name

Thear J. Lemoine
10 Mr.. 0 Ms.

Firm

0 Miss

Brown Sims

Address

1100 Poydras Street, 39th Floor

City & State
Phone

0 Mrs.

New Orleans, Louisiana

504-262-2956

Zip
Email

70163

tlemoine@brownsims.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Paul Hughes, McDermott Will & Emery, and James Garner, Sher Garner

RECEIVED
NOV -8 2019
OFFICE OF THE CLERK
SUPREME COURT U.S.

Brown
Sims

Thear Lemoine
Shareholder
Admitted in Louisiana & Mississippi
tlemoine@brownsims.com

1100 Poydras Street
39th Floor
New Orleans, Louisiana 70163
0 504.569.1007
F 504.569.9255

D 504-262-2956

November 04, 2019
Scott S. Harris
Clerk of Court
Supreme Court of the United States
1 Pt Street, NE
Washington, DC 20543

Via FedEx: 7769 1179 1010

Re:

Texas Brine Company, LLC v. Florida Gas Transmission Company, LLC el al

Case No.:

19-459

Our File No.:

0392-186626

Dear Mr. Harris:
Enclosed for filing on behalf of National Surety Company is our Waiver. Please file the
original into the record. We ask that you return a conformed copy indicating the date of filing in
the enclosed self-addressed postage pre-paid envelope.
Should the Court require anything further, please do not hesitate to contact me. Thank
you in advance for your attention to this matter.
With best regards, I am

Sincerely,
Brown Sims

Thear J. Lemoine

TJL/jr
Enclosures

RECENED
W3‘1 - g `)1119
Houston I Lafayette I

New Orleans

I Gulfport I Miami.

•

RK
OFFICE OF "T CLERK
SUPREME
CO
.
•
JE
SUPREME

